Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




       Medicare Reimbursement for
        Electroconvulsive Therapy




                    JANET REHNQUIST
                   Inspector General

                      DECEMBER 2001
                      OEI-12-01-00450
                          OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG) mandated by Public Law 95-452, as
amended by Public Law 100-504, is to protect the integrity of the Department of Health and
Human Services programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary of program
and management problems and recommends legislative, regulatory, and operational approaches to
correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's headquarters office prepared this report under the direction of Stuart Wright, Director,
Medicare and Medicaid.

Headquarters

Alan Levine
Senior Program Specialist




          To obtain copies of this report, please call our headquarters office at (202) 619-0480.
             Reports are also available on the World Wide Web at our home page address:

                                          http://oig.hhs.gov/oei/
Janet Rehnquist

Inspector General


OIG Final Report: “Medicare Reimbursement for Electroconvulsive Therapy,” 

OEI-12-01-00450


Thomas A. Scully

Administrator

Centers for Medicare & Medicaid Services



Purpose

This memorandum recommends that the Centers for Medicare & Medicaid Services (CMS)
consider the appropriateness of one of the two current procedural terminology (CPT) codes
for electroconvulsive therapy (ECT). Currently, ECT can be billed under 90870, Single
Seizure; or 90871, Multiple Seizures, per day. However, the National Institutes of Health
(NIH) 1985 Consensus Conference Statement on ECT, as well as more current research,
indicates that the administration of multiple seizures is not clinically recommended.

Background

Electroconvulsive therapy is a treatment for severe mental illness in which a brief application of
electric stimulus is used to produce a generalized seizure. Electrodes connected to an ECT
machine are attached to the scalp of a patient who has received general anesthesia and a
muscle relaxant. The ECT treatments are generally given on an every-other-day basis for 2 to
3 weeks. Seizure lengths of duration of greater than 20 seconds per treatment (as assessed by
motor activity, not electroencephalogram seizure activity) are considered adequate for
therapeutic purposes. According to the NIH 1985 Consensus Development Conference
Statement on ECT, “...The number of treatments in a course of therapy varies. Six to twelve
treatments are usually effective....”

The March 14, 2001, Journal of the American Medical Association states that ECT is “...an
effective and safe treatment for severe major depression...(it) may also be seriously considered
as treatment for patients with acute mania, and for patients with schizophrenia who have not
responded to adequate antipsychotic medications....”

Medicare allowed charges for ECT in 1998, 1999, and 2000 were $13.3 million; $13.6 million;
and $13.6 million, respectively. The total allowed services were 154, 995 (1998); 153,193
(1999); and 153,000 (2000).
Page 2 - Thomas A. Scully

Issue - Medical Literature Does Not Support Use of CPT 90871

According to the American Medical Association’s CPT Assistant newsletter, Summer 1992,
two CPT codes are available for billing Medicare for ECT services: Code 90870, single
seizure, and Code 90871, multiple seizures, per day. (Note that multiple seizures is also
known as multiple monitored ECT (MMECT)).

Medicare allowed charges for CPT 90871 during 1998, 1999 and 2000 were $473,000;
$464,513; and $435,000, respectively. The total allowed services were 3,855 (1998); 3,788
(1999); and 3,585 (2000). The average allowed charge for CPT 90871 in 2000 was $121.00;
for CPT 90870 it was $88.00.

The NIH 1985 Consensus Development Conference Statement on ECT states that “...Multiple-
monitored ECT (several seizures during a single treatment session) has not been demonstrated
to be sufficiently effective to be recommended...”

Notwithstanding this statement, CPT 90871 is being reimbursed by Medicare, as noted above,
at the rate of about $500,000 per year.

In 1997, we sought an opinion from a carrier medical director, who is also a psychiatrist, about
Medicare ECT data. He advised us as follows:

       “...the use of 90871, multiple seizures in one day, should show a very small
       utilization...The technique of purposely inducing multiple seizures to increase the
       therapeutic benefit is rarely done, and is apparently only supported by anecdotal
       reports....”

This carrier medical director believes that the frequent use of 90871 could be caused by
practitioner confusion. He states:

       “...in the ordinary course of administering ECT, or in order for the treatment to be
       effective, the seizure needs to last more than 20 seconds. If the seizure is of shorter
       duration, the seizure needs to be repeated until a seizure of sufficient duration is
       achieved. This should be coded as 90870...”

Because the NIH Consensus Development Conference Statement on ECT was issued over 15
years ago, we recently asked the National Institute of Mental Health (NIMH) for their opinion
on the use of Code 90871 (MMECT).
Page 3 - Thomas A. Scully

In a May 14, 2001 memorandum, NIMH made the following points. In MMECT, the patient
undergoes ECT in the usual fashion, but before gaining consciousness, undergoes another
session of ECT designed to elicit a second (or additional) seizure. There were three rationales
for this: (a) as a more intense treatment, MMECT would induce a faster therapeutic response;
(b) if MMECT resulted in fewer inductions of general anesthesia by "doubling up" treatments,
it would be safer for medically compromised patients; and (c) lower cost based on fewer
treatment sessions.

The modern use of MMECT is centered on clinical case series, supplemented with limited
single-blind studies, to emerge from Oregon between the mid-1960s and the mid-1980s.
Administering between 4 and 8 seizures, spaced 3 minutes apart, per session, the studies
reported an equivalent efficacy between MMECT and standard ECT, while claiming the above
cited advantages of reduced cost, lessened time ill, and lower general cognitive disturbances
associated with MMECT. However, other investigators were unable to verify the claimed
advantages, and reports of prolonged seizures and profound confusional states following
MMECT turned the field away from MMECT. A key study was published (Comprehensive
Psychiatry 1972; 13:115-121) that was definitive in showing none of the claimed benefits and
many risks; the investigators concluded that MMECT was unacceptable.

Recent objective reviews have concluded that MMECT should not be part of a routine clinical
treatment. A 1999 book entitled “Electroshock: Restoring the Mind” notes from the
present-day perspective that the presumed advantages of MMECT (see list above) have in fact
not been realized; the book concluded that "such schedules are not encouraged today.”

The second edition (2000) of the American Psychiatric Association Task Force on ECT's
recommendations for clinical training and practice, published in the last 6 months, finds a role
for MMECT only "rarely," and even then for no more than two seizures, far below the 4 to 8
recommended by the advocates for MMECT. There are accepted clinical grounds for inducing
double seizures at a single session, including manic delirium and catatonia, where speed of
clinical response is essential, and also in the case of an inadequate seizure resulting from a very
high seizure threshold, where the patient is re-stimulated. However, according to NIMH “
...This is not considered "MMECT," and there appears to be no reason to code this differently
from regular ECT...”

The NIMH concluded that MMECT does not, in fact, have a scientifically demonstrated role
and should not be done. Specifically, NIMH noted that “...MMECT, while attracting
advocates among some clinicians over the years, has never entered mainstream medicine. Its
role in modern psychiatric practice is marginal at best... the research supported and reviewed
by NIMH does not provide evidence in favor of continuing a routine code for what is generally
regarded as an outmoded procedure that should not be used in other than extraordinary
circumstances.”
Page 4 - Thomas A. Scully

We did not review medical records to determine if multiple-monitored ECT claims which were
paid for by Medicare were medically necessary and properly coded. However, based on the
1985 NIH Consensus Development Conference Statement and the comments from the carrier
medical director and NIMH, the OIG believes that CMS should take steps to assure that
Medicare coverage policy on ECT is consistent with current research and medical practice
guidelines. The CMS action on this issue would also address patient safety, as noted earlier,
MMECT has the potential to do harm, i.e. to cause prolonged seizures and profound
confusional states.

Recommendations

We recommended that CMS consider the appropriateness of Code 90871 and take the
necessary action. The CMS action should take into account, of course, that CPT 90871
should rarely, if ever, be used.

CMS Response

The CMS concurred with our recommendation and indicated that it will review the
appropriateness of CPT 20871 at the next quarterly review of CPT codes. A copy of CMS’
response is attached as Appendix A.

Attachment
APPENDIX A 

